37

TABLE OF APPENDIX CONTENT
APPENDIX A (Appeals MANDATE).
APPENDIX B (Appeals DISMISSED and DENIED
Motion for Reconsideration to appear in forma pauperi)
APPENDIX C (Appeals DENIED Request for Opinion
as to why concluded case is frivolous; DENIED;
Reconsideration for Dismissing case and Denied
Petition for Rehearing eri banc. Also, DENIED Motion
to extend time to file Opening Brief; Motion to appoint
a pro bono attorney in petitioner’s case; and Motion to
appear in forma pauperi. DISMISSED case).
APPENDIX D (Central District Court. Final
Judgment)
APPENDIX E (Central District Court. Orders)
APPENDIX F (Central District Court, Report &
Recommendation)

38

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MARILU F. TOUMA
Plaintiff, Appellant,
v.
THE GENERAL COUNSEL
OF THE REGENTS, AKA
The Regents; et al,

■9

)
)
)
)
)

)
)

No. 18-55996
D.C. No. 8:17-cv01132-VBF-KS
U. S. District Court)
for Central Court,
California,
Santa Ana.

)
)

Defendants - Appellees. )

MANDATE

On May 1, 2019, the court of appeals entered its
mandate that the judgment of the court entered on
January 18, 2019 constitute the formal mandate of the
Court.

FILED MAY 1, 2019

APPENDIX A

39
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MARILU F. TOUMA
Plaintiff, Appellant,
v.
THE GENERAL COUNSEL
OF THE REGENTS, AKA
The Regents; et al,

)
)
)
)
).
)
)
)
)

No. 18-55996
D.C. No. 8:17-cv01132-VBF-KS
U. S. District Court)
for Central Court,
California,
Santa Ana.

)

Defendants - Appellees. )

ORDER

Filed order (STEPHEN S. TROTT, RICHARD C. TALLMAN
and CONSUELO M. CALLAHAN) We treat Touma’s
filings (Docket Entry Nos. [31], [32], [33], [34], [35] &
[36]) as a combined motion for reconsideration and
reconsideration en banc. Touma’s motion.for
reconsideration is denied and Touma’s motion for
reconsideration en banc is denied on behalf of the
APPENDIX B

40
court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
Touma’s request for an opinion (Docket Entry No. [37])
is denied. No further filings will be entertained in this
closed case. [11273444] (OC)

FILED APRIL 23, 2019

41
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MARILU F. TOUMA
Plaintiff, Appellant,
v.
THE GENERAL COUNSEL
OF THE REGENTS, AKA
The Regents; et al.,

)
)
)
)
)

)
)

No. 18-55996
D.C. No. 8:17-cv01132-VBF-KS
Central District of
California,
Santa Ana

)
)

Defendants - Appellees. )

ORDER

Before: STEPHEN S. TROTT, RICHARD C. TALLMAN
and CONSUELO M. CALLAHAN, Circuit Judges:
The district court certified that this appeal is
frivolous and has denied appellant leave to proceed in
forma pauperis on appeal. See 28 U.S.C. § 1915(a). On
August 24, 2018, we ordered appellant to explain in writing
why this appeal should not be dismissed as frivolous.
APPENDIX C

42
See 28 U.S.C. § 1915(e)(2) (court shall dismiss case at any
time, if court determines it is frivolous or malicious).
Upon a review of the record and response to the
court’s order to show cause, we also conclude this appeal is
frivolous. We therefore deny appellant’s motion to proceed
in forma pauperis (Docket Entry Nos. 22 & 23) and dismiss
this appeal as frivolous, pursuant to 28 U.S.C. § 1915(e)(2).
All other pending motions and requests are denied as
moot. DISMISSED. [11159182] (RT)
DISMISSED.

FILED JANUARY 18, 2019.

43
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
MARILU F. TOUMA,

)

Plaintiffs,
v.

)
)

SA CV 17
01132-VBF-KS

)
)
)

FINAL
JUDGMENT

The General Counsel of the
Regents, Dr. Veena Ranganath, )
Dr. Roy Altman, Dr. Emily
)
Huang, Dr. David Feinberg,
)
City of Los Angeles, Los Angeles )
County, Melissa Ginsburg, Mike )
Unknown Last Name, Nicholas )
Baca, Michael Weingrow,Earner)
Goodwin, Bristol-Myers Squibb, )
and Does 1-10
)
Defendants, )

Final Judgment is hereby entered in favor of
all defendants and against plaintiff Marilu F. Touma.
IT IS SO ADJUDGED.
Dated: July 6, 2018
Valerie Baker Fairbank-stamp /s/
Honorable Valerie Baker Fairbank
Senior United States District Judge
APPENDIX D

m

fe-

44
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
MARILU F. TOUMA,

)

Plaintiffs,
v.

) Case No. SA CV 17
) 01132-VBF-KS
)

)ORDER
The General Counsel of the
) Overruling Petitioner’s
Regents, Dr. Veena Ranganath, ) Objections; Adopting
Dr. Roy Altman, Dr. Emily
) the Report &
) Recommendation;
Huang, Dr. David Feinberg,
City of Los Angeles, Los Angeles ) Dismissing Second
County, Melissa Ginsburg, Mike ) Amendment Complaint;
Unknown Last Name, Nicholas )
Baca,_MichaeLWeingrow,Barner) Dismissing the Action
Goodwin, Bristol-Myers Squibb, ) With Prejudice;
and Does 1-10,
) Directing Entry of Final
) Judgment; Terminating
Defendants,
) and Closing Action (JS-6)
This is a civil-rights action brought by a nonincarcerated party proceeding pro se. This Court has
reviewed the Second Amendment Complaint. The
Magistrate Judge’s April 5 2018 Report & Recommendation
(“R&R”), plaintiffs Touma’s April 26, 2018 objections, and
the applicable law. “As required by Fed. R. Civ. P. 72 (b)(3),
EXHIBIT E

45
the Court has engaged in the novo review of the portions of
the R&R to which petitioner has specifically objected and
finds no defect of law, fact, or logic in the ..R&R.” Rael v.
Foulk, 2015 WL4111295, *1 (C.D. Cal. July 7, 2015), COA
denied, No. 15-56205 (9th Cir. Feb. 18, 2016).
“The Court finds discussion of [the] objections to be
unnecessary on this record. The Magistrate Act ‘merely
requires the district judge to make a de novo determination
of those portions of the report or specified proposed finding
or recommendation to which objection is made.’” It does not
require the district judge to provide a written explanation
of the reasons for rejecting objections. See Mackenzie v.
Calif. Attorney General, 2016 WL 5339566, *1(C.D. Cal.
Sept. 21, 2016) (quoting US v Bayer AG, 639 F. App’x 164,
168-69 (4th Cir. 2016) (per curiam) (“The district court
complied with this requirement. Accordingly, we find no
procedural error in the district court’s decision not to

46
address specifically Walterspiel’s objections”))- “This is
particularly true where, as here, the objections are plainly
unavailing.” Smith v. Calif. Jud. Council, 2016 WL
6069179, *2 (C.D. Cal. Oct. 17, 2016). Accordingly, the
Court will accept the Magistrate Judge’s factual findings
and legal conclusions and implement her recommendations.
ORDER
Plaintiffs Touma’s objections [Doc # 33] is OVERULED.
The Report & Recommendation [Doc # 22] is ADOPTED.
The Second Amended Complaint [Doc # 29] is DISMISSED
without leave to amend.
Final Judgment consistent with this order will be entered
separately as required by Fed. R. Civ. P. 58(a). See Jayne
v. Sherman, 706 F. 3d 994, 1009 (9th Cir. 2013).
This action is DISMISSED with prejudice.
This case SHALL BE TERMINATED and closed
(JS-6)
Dated: July 6, 2018
Valerie Baker Fairbank-stamp /s/
Honorable Valerie Baker Fairbank
Senior United States District Judge

47
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
) NO. SA CV 17-1132- VBF-KS
MARILU F. TOUMA
Plaintiff, )
)

)
)
GENERAL COUNSEL OF )
THE REGENTS, et al,
)
v.

REPORT AND
RECOMMENDATION OF
UNITED STATES
MAGISTRATE JUDGE

)

Defendants, )
This Report and Recommendation is submitted to the
Honorable Valerie Baker Fairbank, United States District
Judge, pursuant to 28 U.S.C. 636 and General Order 05-07
of the United States District Court for the Central District
of California.
INTRODUCTION
On June 30, 2017, Marilu F. Touma (“Plaintiff’), a
California resident proceeding pro se and in forma pauperis,
filed a civil rights complaint (“the Complaint”) (Dkt. No 1)
and a request to proceed in forma pauperis (Dkt. No 3). On
July 7, 2017, the Court granted Plaintiffs request to
proceed in forma pauperis (Dkt. No 9) and on July 24, 2017,
APPENDIX F

48
the Court dismissed the Complaint with leave to amend
and ordered Plaintiff to filed, within 30 days, a First
Amended Complaint (Dkt. No 13). On November 27, 2017,
after numerous extensions of time (see Dkt. Nos 15, 18, 21),
Plaintiff filed a First Amended Complaint (the “FAC”) (Dkt.
No 23). On December 13, 2017, the Court dismissed the
FAC with leave to amend. (Dkt. No 24).
Plaintiff attempted to file her SAC on January 16,
2018, but the Court rejected the pleading because the filing
was late and she did not submit the SAC as one document.
(Dkt. No 25). On January 17, 2018, Plaintiff filed a
Declaration in Support of her SAC, asking the Court to
“allow Plaintiff s Second Amended Complaint” in two
separate documents. (Dkt. No 26 at 1). On January 25,
2018, the Court issued an Order denying Plaintiffs request
that the Court accept her incorrectly filed SAC. (Dkt. No
27). Then, on January 29, 2018, Plaintiff filed Objections to
the Court’s. Order rejecting the SAC. (Dkt. No 28). On
February 2, 2018, Plaintiff properly filed a complete SAC in
one document (Dkt. No 29), and on February 6, 2018, the
Court Ordered that the SAC be filed and processed with a
filing date of February 2, 2018. (Dkt. No 30).

49
Plaintiff sues the following entities and individuals
for alleged civil rights violations arising from medical
treatment that she received at the Ronald Reagan UCLA
Medical Center (the “Medical Center”): the City of Los
Angeles; Los Angeles County; San Bernandino County; The
State of California; UCLA Hospital and University of
California Board of Regents (the “UC Board of Regents”);
Dr. Veena Ranganath, a rheumatoid arthritis specialist
affiliated with the Medical Center; Dr. Roy Altman, a
rheumatoid arthritis specialist affiliated with the Medical
Center; Melissa Ginsburg, a nurse affiliated with the
Medical Center; Mike a nurse affiliated with the Medical
Center; Nicholas Baca, a hospital clerk affiliated with the
Medical Center; Emily Huang, a physician affiliated with
the Medical Center; Michael Weingrow, a licensed
physician employed at the Medical Center; David T.
Feinberg, a medical administrator at the Medical Center;
Barner Goodwin, a director of security at the Medical
Center; Bristol-Meyers Squibb; and Does 1 through 10, who
are described as “UCLA employees/county/state/federal
governmental agencies/employees who/whom are (were)
aware/have (had)some knowledge of the alleged violations.”
(SAC at 5-18,) i

50
Plaintiff alleges violation of 42 U.S.C, 1981, 1983,
1985;45 C.F.R. 46; the Americans with Disability Act; and
the Rehabilitation Act based on alleged racial
discrimination, denial of medical services, and retaliation.
(SAC at 1-2; 26, 47, 67.)
STANDARD OF REVIEW
In Civil actions where the plaintiff is proceeding in
forma pauperis (“IFT”), Congress requires district courts to
dismiss the complaint “at any time” if the court determines
that the complaint, or any portion thereof: (1) is frivolous or
malicious; (2) fails to state a claim upon which relief can be
1
In the “parties” section of the SAC, Plaintiff also names Barner Goodwin and
Daniel T. Feinberg as defendants but she does not mention them in any of the Causes of
Action outlines in the SAC. She does not name these individuals in the caption of the
SAC or allege any facts anywhere in the SAC indicating their involvement in any alleged
misconduct. Accordingly, Plaintiff fails to state any claim against those individuals. To
the extent the facts alleged in the other section of the SAC allude to claims against these
individuals, those claims are dismissed pursuant to the Rule 12 (b) (6) of the Federal
Rules of Civil Procedures for failure to state a claim. (See discussion infra)
2
Even when a plaintiff is not proceeding IFP, Rule 12(b)(c) permits a trial court
to dismiss a claim sua sponte and without notice “where the claimant cannot possibly win
relief.” Omar v. Sea-Land Serv., Inc. 813 F.2d 986, 991 (9th Cir. 1987); see also Sparling v.
Hoffman Constr. Co., 864 F.2d 635, 638 (9th Cir. 1988) (same); Baker u. Director, U.S.
Parole Comm’n, 916 F.2d 725,726 (D.C. Cir. 1990) (per curiam) (adopting Ninth Circuit’s
position in Omar in noting that in that circumstances a sua sponte dismissal “is practical
and fully consistent with plaintiffs rights and the efficient use of judicial resources”). The
court’s authority in this regard includes sua sponte dismissal of claims against defendants
who have not been served and defendants who have not yet answered or appeared. See
Abagnin v. AMVAC Chemical Corp., 545 F.3d 733, 742-743 (9th Cir. 2008); See also
Reunion, Inc. v. F.A.A., 719 F. Supp. 2d 700, 701 n.l (S.D. Miss. 2010) (“[T]he fact that
[certain] defendants have not appeared and filed a motion to dismiss is no bar to the
court’s consideration of dismissal of the claims against them for failure to state a claim
upon which relief can be granted, given that a court may dismiss any complaint sua
sponte for failure to stay a claim for which relief can be granted pursuant Rulel2(b)(6).”)

51
granted; or (3) seeks monetary relief from a defendant who
is immune from such relief. 2 28 U.S.C. 1915 (e)(2).
In determining whether a complaint should be
dismissed at screening, the Court applies the standard of
Federal Rule of Civil Procedure Rulel2(b)(6): “[a] complaint
must contain sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face.” Rosati v.
Igbinoso, 791 F.3d 1037, 1039 (9th Cir. 2015). Thus, the
plaintiffs factual allegations must be sufficient for the court
to “draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Cook u. Brewer, 637 F.3d
1002, 1004 (9th Cir. 2011) (citation and internal quotation
marks omitted); see also Bell Atlantic Corp. v. Twonbly, 550
U.S. 544, 555 (2007) (“Factual allegations must be enough
to raise a right to relief above the speculative level”).
When a plaintiff appears pro se in a civil right case,
the court must construe the pleadings liberally and afford
the plaintiff the benefit of any doubt. Akhtar u. Mesa, 698
F.3d 1202,1212 (9th Cir. 2012); see also Erickson v. Pardus,
551 U.S. 89, 94 (2007) (“A document filed pro se is to be
liberally construed, and a pro se complaint, however
inartfully pleaded, must be held to less stringent standards
than formal pleadings drafted by lawyers.” (citations and
internal quotation marks omitted). In giving liberal

52
interpretation to a pro se complaint, however, the court may
not supply essential elements of a claim that were not
initially pled. Byrd v. Maricopa County Sheriffs Dep’s, 629
F.3d 1135, 1140 (9th Cir. 2011), and the court need not
accept as true “allegations that are merely conclusory,
unwarranted deductions of fact, or unreasonable
inferences,” Sprewell v. Golden State Warriors, 266 F.3d
979, 988 (9th Cir. 2001).
If the court finds that a pro se complaint fails to state
a claim, the court must give the pro se litigant leave to
amend the complaint unless “it is absolutely clear that the
deficiencies of the complaint could not be cured by
amendment.” Akhtar, 698 F.3d at 1212 (internal quotation
marks omitted); Lira v. Herrera, 427 F.3d at 1164, 1176
(9th Cir. 2005). However, if amendment of the pleading
would be futile, leave to amend may be denied. See
Gonzales v. Planned Parenthood of Los Angeles, 759 F.3d
1112, 1116 (9th Cir. 2014). “The district court’s discretion in
denying amendment is “particularly broad” when it has
previously given leave to amend.” Id.
I. ALLEGATIONS OF THE SAC
A. Defendants Altman and Ranganath
Plaintiff alleges that she is a “Hispanic disable [sic]
woman” and English is her second language (SAC at 19.)

....

53
She was diagnosed with rheumatoid arthritis in
approximately 2010. (Id at 20.) In August 2012, she sought
treatment for rheumatoid arthritis with Defendant Altman,
a rheumatoid arthritis specialist at the Medical Center. (Id
at 27.) Plaintiff informed him that she received state
disability and Defendant Altman allegedly told Plaintiff
that “she could not afford the expensive medications.” (Id
at 30.) He suggested that Plaintiff instead join a study led
by Defendant Ranganath, but failed to disclose the
“criteria/Exclusion/side effects/Disadvantages of any crucial
information about the study; ONLY the advantages.” (Id at
34.)
Approximately one week later, Plaintiff contacted
Altman because she was experiencing pain. (Id at 36-37.)
Altman again suggested that Plaintiff join the study
conducted by Ranganath. (Id at 38.) According to Plaintiff,
Altman did not provide her with any information about her
medical conditions, refuse her service, and did not make a
“quality interpreter” available to ensure that she
understood the nature of her medical conditions or the
study. (Id at 42-44.) Plaintiff alleges she “felt forced to be in
Ranganath’ [sic] study.” (Id at 39.)
Plaintiff first met with Dr. Ranganath on November
9, 2012. (Id at 48) Plaintiff experienced “several symptoms.”

54
Including pain, headaches, swelling, and “other physical
and emotional symptoms.” (Id.) She discussed her medical
history with Ranganath and expressed a desire to become
pregnant in the future. (Id at 49.) Plaintiff alleges that,
during the appointment, Ranganath disclosed “only the
advantages” of the study and did not disclose enough
information for Plaintiff to properly evaluate whether she
should participate, including that “the Free Medication
ORENCIA was expired.” (Id at 50.) Plaintiff alleges that,
after ordering several lab test and “other exams,”
Ranganath only diagnosed Plaintiff with rheumatoid
arthritis, but concealed other medical conditions from her.
(Id at 52-53.) Plaintiff alleges that because Ranganath
failed to disclose “vital information” about the study,
Plaintiff “did not have ALL/Right information she needed to
evaluate her situation and willingly decided if the study
was a good option for her and her medical needs.” (Id at 51
(emphasis in original).) In addition, Plaintiff asserts that
Dr. Ranganath never provided her with information on the
study in Spanish, Plaintiffs native tongue, or provided her
with a “qualified interpreter to make sure Plaintiff
understood everything about the study and her medical
conditions.” (Id at 55.)

■jy’ICTCyiTlT-5.------

55
On or about March 2013, Plaintiff says she learned
that the ORENCIA medication that Dr. Ranganath had
been giving her was expired. (Id at 56.) Plaintiff began to
experience “losing her [sic], itching, stomach pain among
other side effects that she communicated to Ranganath.” (Id
at 59.) Plaintiff complained to Ranganth who assured her
“the medication was ok.” And altered Plaintiffs doses of
medications. (Id at 57-60.) Ranganath invited Plaintiff to
share her experience with representatives from Orencia,
but she alleges, Ranganath never told Plaintiff about the
time and place of the conference. (Id at 61.) Further,
“Plaintiff believe she was the ONLY one receiving
ORENCIA medication that was expired in Ranganath’
study.” (Id at 63(error in original).)
Plaintiff alleges that Ranganath discriminated
against her, denied her medical treatment for all of her
medical conditions, concealed her medical conditions,
provided her with a low/poor quality of medical services,
and worsened her medical conditions by giving her expired
and incorrect doses of medications. (Id at 47.) Plaintiff also
alleges that Ranganath did not abide by the “Experimental
Research Subject’s Bill of Rights” that was part of the
consent form Plaintiff signed because of Plaintiffs protected
status as a disabled woman. (Id.)

56
Plaintiff further alleges that, since Drs. Altman and
Ranganath last saw Plaintiff, she was diagnosed with
“Rheumatoid Arthritis, Lupus (Borderline) Fibromyalgia,
S’Joergen Syndrome, Thyroiditis, Chrone Disease, Ulcers
among other diseases and conditions.” (Id at 120 (error in
original).) Plaintiff “was forced to undergo several medical
procedures and tool several prescription drug medications
that had several side effects since she saw medical care
from Altman and he put her in Ranganath’ study.” (Id at
121 (error in original).)
Plaintiff alleges that, in 2015, she learned for the
first time that the Ranganath study was for persons
diagnosed with rheumatoid arthritis only and the study
criteria specifically excluded persons with pregnancy,
lupus, or taking daily prednisone and that “expired (one
year or older) injection (ORENCIA) does not have any
effectiveness/strength in a person’s body.” (Id at 122.)
Plaintiff alleges that she took prednisome for her lupus and
inflammation and “believes she was the ONLY participant
and EXPIRED ORENCIA because she is Hispanic and a
disable woman.” (Id. (emphasis in original).)
B. Defendants UC Board of Regents,
Ginsburg, Mike, Baca, Weingrow and
Huang

57
On June 23, 2013, Plaintiff went to the UCLA
emergency room with multiple symptoms, including chest
pain, shortness of breath, numbness in her face, headache,
and stomach pain. (SAC at 68.) During the registration
process, she encountered Ginsburg (nurse), Mike (nurse),
and Baca (hospital clerk), (Id at 72) Nurse Ginsburg asked
Plaintiff for her “Medical ID” and asked Plaintiff to describe
her symptoms. (Id at 73-74.) While Plaintiff described her
symptoms to nurse Ginsburg, Baca asked Plaintiff for her
Medical ID and California identification. (Id at 75.)
Plaintiff alleges that nurse Mike then abruptly
pulled Plaintiffs arm, and Baca searched her purse without
her consent. (Id at 76-77.) She alleges that “Ginsburg,
Mike and Baca’S deliberate created a very hostile/
oppressive/mocking environment for plaintiff because she is
Hispanic woman; whose English is her second language and
speaks with a heavy accent.” (Id at 78 (error in original).)
When Plaintiff asked for their names, Ginsburg, Mike, and
Baca allegedly responded by making mocking facial
expressions and refusing to provide their names. (Id at 79.)
Baca eventually wrote his name on a piece of paper and
handed it to Plaintiff. (Id.)
Mike allegedly make several demeaning remarks in
Spanish regarding Plaintiffs race, including, “We need a

58
housekeeper to clean the beds.” (Id at 80.) According to
Plaintiff, Ginsburg “kept calling Plaintiff by different
Hispanic names: ‘Rosa’ and ‘Maria’ and yelled at Plaintiff
when she tried to correct her (Id at 81.) Plaintiff claims that
these actions caused her to suffer “denial of proper
registration” and “aggravation of Plaintiffs physical and
emotional conditions” (Id at 82.) Plaintiff also alleges that
“Ginsburg; Mike and Baca [sic] racial bias/false accusations
resulted in Plaintiff been harassed by several UCLA
employees.” (Id at 84.) Those UCLA employees include
Emily Huang, a medical resident who examined Plaintiff
with a male who was taking notes. (Id at 85 Huang
allegedly said to Plaintiff, “I heard you had a rough time
when you came in.” (Id.) After Plaintiff explained her
medical symptoms to Huang, Plaintiff “never saw Huang
and/or the young men again.” (Id.)
Plaintiff alleges that Weingrow, the physician in
charge of the Emergency Room (“ER”), denied Plaintiff
medical care because of her issues with Defendants
Ginsburg, Mike, and Baca. (Id at 86.) Weingrow allegedly
stood away from Plaintiff s bed and did not show concern
for her symptoms. (Id.) Plaintiff asserts that after tis single
visit, she never saw Weingrow again. (Id.)

-

59
Plaintiff alleges that when she was released from the
hospital, she was not adequately informed of her medical
conditions because the release form indicated that Plaintiff
was tearful and anxious, but did not address any of her
underlying medical symptoms. (Id at 90.) According to
Plaintiff, the UC Board of Regents, “through the
acts/omissions of their employees did not stabilized
Plaintiffs medical conditions.” (Id at 91 (error in original).)
Plaintiff further alleges that in 2015, she learned
that ER employees Ginsburg, Mike, and Baca made
accusations about Plaintiff. (Id at 123.) Specifically,
Plaintiff claims that Ginsburg told UCLA ER personnel
that Plaintiff had struck her in the ER; Mike allegedly told
ER personnel that Plaintiff did not want or like to touched;
and Baca supposedly “spread rumors about Plaintiff that
she was difficult.” (Id.)
C. The UC Board of Regents
The SAC asserts a litany of allegations against the
UC Board of Regents related to Plaintiffs care at the
Medical Center. Plaintiff alleges that “the UC Board of
Regents is [sic] responsible for the racist/prejudice behavior
she had to endure” by Altman, Ranganath, Ginsburg, Mike,
Baca, Weingrow, and Huang; “for the unprofessional/
unethical medical acts/omissions she had to endure”; ‘for

60
Plaintiffs permanent damages” as a result of the
“racist/prejudice medical and non-medical acts/omissions of
Altman, Ranganath, Ginsburg, Mike, Baca, Weingrow and
Huang”; “for not taking and properly investigating
Plaintiffs claims of racial discrimination; Breach of privacy;
threat calls and Concealment of Medical Records; “for not
making its employees...Accountable for their
discriminatory actions and their false accusations against
Plaintiff [sic] persona and character”; “for not complying
with Local, State, and Federal Laws that Prohibits any type
of discrimination in a Public Hospital and for violation of
Federal Law under ADA that protects individual with
Disabilities”; for Altman and Ranganath not complying
with the Experimental Research Subject’s Bill of Rights;”
and “for Plaintiffs breach of Privacy” because “[s]everal
Regents employees” allegedly viewed Plaintiffs personal
and medical information “without a need for treatment,
diagnosed [sic] or other lawful use.” (Id at 93.)
Plaintiff claims that she tried to file a race
discrimination claim with Defendant “Goodwin, UCLA
Security,” over the phone, but he did not take her claim. (Id
at 94.) She also filed a claim with UCLA nursing
department, but says that her complaint was ignored. (Id at
96.) Plaintiff alleges that in July 2013, she began receiving

61
threatening phone calls and messages that only ceased
when she received a summons to appear in court where she
was sued for $85,000 by unnamed party and later filed for
bankruptcy because she did not have that amount of
money. (Id at 97.)
Plaintiff does not explain how the summons and
bankruptcy are related to her claims regarding her medical
care, but she alleges that she “was afraid the Regents’
employees were retrieving her personal information to
retaliate against her for complaint she was making.” (Id at
98.) She alleges that she notified UCLA Patient affairs of
her concerns, but the “Regents did not investigate” and she
was “advised to file a complaint with Los Angeles Public
Health.” (Id at 99.)
In 2015. Plaintiff says she “received a letter from the
Regents stating its computers were hacked in 2013-2014
(est.). Plaintiffs personal information was compromised.”
(Id at 124.)
D. County of Los Angeles Public health, Los
Angeles County
Plaintiff also sues County of Los Angeles Public
Health (“LAPH”) and Los Angeles County. In June of 2013,
Plaintiff filed a claim against the UC Board of Regents with
LAPH. (Id at 101.) Plaintiff alleges that in January of

62
2014, LAPH substantiated Plaintiffs claims regarding her
inadequate treatment, but they failed to investigate her
claims of threats and racial discrimination. (Id at 103.) In
February 2014, LAPH referred Plaintiff to the United
States Department of Health and Human Services, Office of
Civil Rights, and they allegedly advised her to take legal
action. (Id at 104-1050 Plaintiff says she hired an attorney
but terminated his services in November 2014 for
unspecified reasons. (Id at 106-107.)
In September 2015, Plaintiff filed a second claim
with LAPH alleging mistreatment, breach of privacy, and
“Tamper/missing [sic] medical records” against the UC
Board of Regents. (Id at 109.) This claim was then sent to a
California Department of Public Health (“CDPH”) District
Office in San Bernardino. (Id at 110.) On September 23,
2015, CDPH sent Plaintiff a letter signed by Michael Floyd
for Coleen Reeves. However, Plaintiff alleges that when
she “tried to talk to them; the receptionist told her that
they do not work there.” (Id at 111.) Plaintiff claims that
she “left several messages for Cleveland; with no success”
and that Thomas McComrey, who is not named in this
action, called Plaintiff at her home and on her cellular
phone “to the point that he was harassing Plaintiff and her
family.” (Id at 112.)

63
Plaintiff “started to have problems at all the medical
clinics/facilities where she was receiving medical care” and
“was told several male investigators from LAPH and/or
CDPH and/or DHCS were following her to all her medical
appointments.” (Id at 112-114.) Plaintiff does not identify a
source of the information. In October of 2016, Plaintiff
requested that the LAPH inspect and copy all of her
medical records. (Id at 115.) After several conversations
with LAPH employees, in January 2017, she received two
letters stating that there we no records under her name. (Id
at 117.)

E. Bristol-Myers Squibb
The SAC purports to assert claims against BristolMyers Squibb, a private pharmaceutical company, for
failing “to abide by the Federal Laws that protect Human
Subjects in Research “based on information that Plaintiff
allegedly learned in January 2018. (Id at 17-125 (capitals in
original).)

F. City of Los Angeles
In her final claim, Plaintiff asserts that “the City of
Los Angeles is responsible for the discriminatory and nondiscriminatory actions/omissions of the Regents” and in

m

64
particular “[f]or the failure of the Regents to abide by
Federal, State, and Local Municipal codes that prohibit any
kind of discrimination in Public setting that provides
services in the City of Los Angeles; including Public
Hospitals” and “for failure to abide and comply with Title II
of the Americans with Disabilities Act.” (Id at 127.
(capitalization and errors in original.) Plaintiff sums up
her claims stating, “she was denied several times medical
services at the Regents; instead; she was mistreated/
discriminated/humiliated because Plaintiff is a disable
woman and belongs to a protective class.” (Id at 128 (errors
in original).)

G. Damages
Plaintiff alleges that as a result of the “intentional
deprivation of her civil rights by all Defendants’ she has
suffered psychological and physical damages, loss of
reputation; loss of “normal/social life”; loss of “opportunity
to become Pregnant/treatment”; loss of “opportunity for
normal treatment/care for her rheumatoid arthritis at the
Regents”; deterioration of her medical conditions; she does
“not trust the medical establishment”; loss of personal
privacy; and she has been “forced to file complaints/involved in several lawsuits.” (Id at 129.) Plaintiff further alleges

65
that she is entitled to equitable tolling if any of her claim
are time barred. (Id at 130-136.)

II.

RELIEF SOUGHT
The SAC purports to assert thirty-nine (39) separate

causes of action against Defendants. (Id at 140-428.)
Plaintiff seeks the following relief: compensatory and
punitive damages against Altman, Ranganath, Ginsburg,
Mike, Baca, Huang, and Weingrow for violating Plaintiffs
rights under 42 U.S.C. 1981 (SAC at pp. 25-33.);
compensatory and punitive damages against Mike, Baca,
Huang, Weingrow, and Ginsburg for violating Plaintiffs
rights under the First Amendment and 42 U.S.C. 1983 (id.
at pp, 33-37); compensatory and punitive damages against
Mike, Baca, Huang and Weingrow, for violating Plaintiffs
rights under the First Amendment and 42 U.S.C. 1985 (id.
at pp. 37-42); compensatory and punitive damages against
Los Angeles County, Altman, Ranganath, Ginsburg, Mike,
Baca, Huang, Weingrow, and Ginsburg for violating her
rights under the ADA (id. at pp. 42-51;56-58);
compensatory and punitive damages against Altman,
Ranganath, Ginsburg, Baca, Huang and Weingrow, for
violations of the Rehabilitation Act (id. at pp. 51-56); and

66
compensatory and punitive damages against Altman,
Ranganath, and the UC Board of Regents for violating 45
C.F.R. & 46 (id. at pp. 25-61). Plaintiff asks that the
amount of damages be determined at trail. (Id.)
Plaintiff also seeks injunctive relief: (1) “To stop the
Harassment/Mistreatment/conspiracy/Defamation against
Plaintiff persona in the Medical Establishment and in the
Governmental Agencies”; (2) ‘To stop denying Medical
Services/Treatment to Plaintiff’; (3) Restoration of
Reputation that was damage [sic] Stigma-Plus Hearing
Request and for such other relief to which plaintiff is
entitled at law or in equity.” (id. at 61 (errors in original).)

DISCUSSION
I. Plaintiff Fails To State A Claim For Damages
Against The State of California, The University of
California Los Angeles, and The UC Board of
Regents.
The Eleventh Amendment to the U.S. Constitution
bars suits against states and state agencies as well as suits
against state officials in their official capacity for money
damages. Will v. Mich. Dept’s of State Police, 491 U.S. 58, 71
(1989). Further, section 1983 does not abrogate Eleventh

67
Amendment immunity for states. Will, 491 U.S. at 70; Hale
v. State of Arizona, 967 F.2d 1356 (9th Cir.)., cert, denied, 510
U.S. 946 (1993). Thus, state agencies and instrumentalities,
including the University of California Los Angeles (“UCLA”)
and the UC Board of Regents are not “persons” amenable to
suit under section 1983. Jackson v. Hayakawa, 682 F.2d
1344, 1350 (9th Cir. 1982) (“the University of California and
the Board of Regents are considered to be instrumentalities
of the state for purposes of the Eleventh Amendment”)
(citing, inter alia, Hamilton v. Regents, 293 U.S. 245, 257
(1934)).

Consequently, to the extent that Plaintiff brings

claims for damages against the State of California or any of
its agencies or instrumentalities, including UCLA and the
UC Board of Regents, those claims must be dismissed with
prejudice.
II. Plaintiff Fails985. To State A Claim Under 42
U.S.C. 1981,1983, and 1985.
A. Plaintiff Fail to State a Claim Under Section
1981.

68
Section 1981 forbids racial discrimination in the
making of both public and private contracts. St. Francis
College v. Al-Khazraji, 481 U.S. 604 (1987). To state a
claim under section 1981, a plaintiff must show that “(1)
[she] is a member of a protected class, 92) [she] attempted
to contract for certain services, and (3) [she] was denied the
right to contract for those services.” Lindsey v. SLT L.A.,
LLC. 447 F.3d. 1138, 1145, (9th Cir. 2006). The plaintiff
must also show that she “was deprived of services while
similarly situated persons outside the protected class were
not.” Id. Here, Plaintiff has failed to allege sufficient facts
to suggest that Defendants, including, UCLA, the UC
Board of Regents, the City of Los Angeles, County of Los
Angeles or any of their employees, violated any rights
protected by Section 1981, which forbids discrimination on
the basis of race in the making of public or private
contracts.

3»S

69
To the contrary, with respect to her medical
treatment, the allegations plainly indicate that she was
able to obtain medical services, but was unhappy with the
medical services that she received. Despite Plaintiff s
conclusory assertions that she was treated a certain way
because she is a “Hispanic woman and disabled,” the
allegation in the SAC do not raise a plausible inference of
any constitutional deprivation. Moreover, while Plaintiff
repeatedly recites that she was a member of a protective
class, nowhere in the SAC does she alleges that any
similarly situated persons were provided medical services
that were denied to Plaintiff.
Plaintiff also does not plead sufficient facts to state a
claim for a constitutional violation against the City of Los
Angeles or the County of Los Angeles. Throughout the
SAC, Plaintiff alleges that she was treated by physicians
and staff at the Medical Center and she alleges that these

70
medical personnel are employees of “the Regents.” (See, e.g.
SAC at 6-14) Her allegations pertaining to the City of Los
Angeles and County of Los Angeles concern complaints that
she allegedly filed with City of Los Angeles and Los Angeles
County public agencies about her care at the Medical
Center. Plaintiff specifically alleges that the County of Los
Angeles Public Health (LAPH) “discriminated Plaintiff by
only investigating part of her claim, but did not investigate
the Racial discrimination part and the threats she was
receiving in her cell phone.” (Id. At 100 (errors in original).)
But there are no facts in the SAC that raise a plausible
inference of discrimination against Plaintiff by any city or
county personnel at LAPH or elsewhere. Plaintiffs
allegations that the city and county are liable for
discrimination because Plaintiff was dissatisfied with
LAPH’s failure to investigate all of her complaints about
the Medical center are wholly conclusory and do not state a
claim for any constitutional violation against either the

71
City of Los Angeles or Los Angeles County. See Twombly,
550 U.S. at 557 (bare assertions without facts will not
suffice to state a claim).
Finally, Plaintiff s allegation that the City of Los
Angeles “is responsible for the discriminatory and nondiscriminatory actions/omissions of the Regents” is
similarly, conclusory and fails to state a claim upon which
relief may be granted. As noted above, the UC Board of
Regens is a state entity, immune from suit for monetary
damages under the Eleventh Amendment. Because this is
Plaintiff s third opportunity to articulate a claim under
Section 1981, an additional opportunity for amendment
would be futile, and her Section 1981 claim should be
dismissed with prejudice.
B. Plaintiff Fails to State a Claim Under Section
1985.
Section 1985 prohibits conspiracies to interfere with
certain civil rights and affords a civil remedy to persons
who, as a result of such conspiracy, have been deprived of

72
the equal enjoyment of rights secured by the law to all. 42
U.S.C. 1985 (3); Griffin u. Breckenridge, 403 U.S. 88, 102
(1971). To state a claim under section 1985, a plaintiff
must allege facts to support the allegation that (1)
defendants conspired together; (2) for the purpose of
depriving a person or class of persons of the equal
protection of the law; and one or more conspirators, (3)
acted in furtherance of the conspiracy; that (4) deprived a
person of exercising any right or privilege of a citizen of the
United States, Id. At 102-03; Karim-Panahi v. Los Angeles
Police Department, 839 F.2d. 621,626 (9th Cir. 1988). A
mere allegation of conspiracy without factual specificity
insufficient. Id.; also Twonbly, 550 U.S. at 557 (“a
conclusory allegation of agreement at some unidentified
point does not supply facts adequate to show illegality”).
Plaintiff asserts that Ginsburg, Mike, Baca, Huang,
and Weingrow violated her rights under 42 U.S.C. 1985 by
intentionally engaging in a conspiracy to deprive Plaintiff of

73
medical treatment. (SAC at pp. 37-41). But the Sac
provides no specific facts that support a plausible inference
of any agreement among these defendants. Nor does
Plaintiff allege facts sufficient to demonstrate an intent to
deprive her of such rights. Both of these elements are
essential to stating a claim under section 1985. Griffin, 403
U.S. at 102. Instead, Plaintiff asks the Court to assume
that a conspiracy occurred because she was unhappy with
the medical services that she received from hospital staff.
Even though the Court liberally construes pro se pleadings,
the Court cannot supply essential elements of a claim that
are not pled. See Byrd v. Maricopa County Sheriff’s Dept’t,
629 F.3d at 1140.
Indeed, as to her interactions with Huang, Plaintiff
4

states that beyond the brief interchange in the ER when
Plaintiff explained her symptoms, Plaintiff never saw
Huang again and there are no facts in the SAC to raise a
plausible inference that Huang had any interactions after

74
that point with Mike, Baca, Ginsburg or Weingrow about
Plaintiffs care. (See SAC at 85.) The SAC’s allegations
regarding the quality of service that Plaintiff received from
defendants at the Medical Center are insufficient to state a
claim for conspiracy under Section 1985.
Because this is Plaintiffs third unsuccessful attempt
to articulate a section 1985 claim, no likelihood exist that
she will be able to cure the deficiencies with amendment.
Accordingly, Plaintiffs section 1985 claims should be
dismissed with prejudice.
C. Plaintiff Fails To State A Claim Under 42 U.S.C.
1983.
In order to state a claim under Section 1983, a
plaintiff must allege that (1) the defendants were acting
under color of state law at the time the complained of acts
were committed; and (2) the defendants’ conduct deprived
plaintiff of rights, privileges, or immunities secured by the
Constitution or laws of the United States. West v. Atkins,
487 U.S, 42, 48 (1988). Here, Plaintiff asserts that

m

rf.--

75
Defendants violated her rights under the First amendment.
(See SAC at pp. 33-36.)
Plaintiff appears to assert that the individual
defendants are “state actors” because they are employees of
the UC Board of Regents. (See, e.g., SAC at 7-14) Further,
while Plaintiff alleges that the actions of the Medical
Center ER personnel were discriminatory based on her race
and disability; Plaintiff fails to allege sufficient facts that
raise a plausible inference that she was deprived of any
Constitutional rights. Indeed, the SAC indicates that
Plaintiff was seen in the ER, was admitted for treatment,
and later released. Although Plaintiff was dissatisfied with
the medical assessment(s) that she received, that fact,
without more, does not demonstrate a colorable
constitutional deprivation.
The same is true with respect to Plaintiffs allegation
that she later discovered she may have been ill-suited for
the Ranganath rheumatoid arthritis study using

76
ORENCIA. While Plaintiffs allegations may be sound in
tort as a medical malpractice claim against Dr. Altman’s or
Dr. Ranganath’s conduct, there are no fact alleged here that
support a Constitutional civil rights claim against these
doctors or nay other individual defendants. Finally,
Plaintiff alleges that the conduct of Ginsburg, Mike, and
Baca caused Plaintiff to be harassed by several unnamed
UCLA employees. (See SAC at 84.) But Plaintiff does not
ever identify any of the “several UCLA employees” or
provide any fact about how these persons allegedly
harassed her. Thus, Plaintiffs allegations about being
harassed by other UCAL employees are conclusory and
wholly lacking in sufficient facts to state a claim. Indeed,
all of Plaintiffs allegations of constitutional violations
stemming from her medical treatment at the Medical
Center are conclusory. She fails to plausibly allege a causal
nexus between each Defendant’s action, or inaction, and
any alleged constitutional violations.

77
Accordingly, even taking as true the allegation that
the named individual defendants are all “state actors,”
Plaintiffs section 1983 claims must be dismissed against
Altman, Ranganath, Ginsburg, Mike, Baca, Weingrow, and
Huang. Further, as discussed in greater detail below,
Plaintiffs Section 1983 claims must also be dismissed
because they are barred by the statute of limitation.
Plaintiff Fails to State a First
Amendment Retaliation Claim
To state a First Amendment retaliation claim under
Section 1983, a plaintiff must allege: “(l).[she] engaged in
constitutionally protected activity; (2) as a result, [she was]
subjected to adverse action by the defendant that would
chill a person of ordinary firmness from continuing to
engage in the protective activity; and (3) there was a
substantial causal relationship between the constitutionally
protected activity and the adverse action.” Mulligan v.
Nichols, 835 F.3d 983, 988 (9th Cir. 2016) (quoting Blair v.
Bethel Sch. Dist., 608 F.3d 540,543 ((9th Cir. 2010).)

78
Plaintiff alleges First Amendment retaliation claim
against Defendants Ginsburg, Mike and Baca, whom she
claims “created false accusations against Plaintiff and
discriminatory/oppressive/abusive environment” to deter
her from filing a complaint against them. (Id. at 189-194
(Ginsburg); 196-200 (Mike); 204-207 (Baca).) She also
brings retaliation claims against Defendants Weingrow and
Huang for treating her unfairly because she is “Hispanic
woman with several disabilities.” (Id. at 210-219.)
Plaintiff identifies her right to file complaints about
her medical care as the protected speech that forms the
basis of her First Amendment retaliation claims. (See, e.g.
SAC at 190.) But Plaintiff fails to plead facts that establish
a plausible inference that, as a result of Plaintiffs
constitutionally protected activity, any Defendants took any
adverse actions against Plaintiff. See Mulligan, 835 F.3d.
at 988. For instance, Plaintiff asserts that at some point

79
during her time at the Medical Center ER, the following
happened: Defendant Ginsburg asked Plaintiff for her
“Medical ID.” (Id. at 73.) Defendants Mike then abruptly
pulled Plaintiffs arm. (Id. at 76.).Baca them, without
Plaintiffs consent, searched her purse. (Id. at 77.) Plaintiff
asked for the names of Defendants Ginsburg, Mike and
Baca, but they responded by making mocking facial
expression and refusing to provide their names. (Id. at 79.)
These actions caused Plaintiff to suffer “denial of proper
registration” and led several other employees to further
embarrass Plaintiff by asking intrusive questions and
ignoring her complaints. (Id. at 84-91.) Later in the SAC,
Plaintiff alleges that she started receiving “threatening”
phone calls from unknown persons that only ceased when
she received a summons to appear in court. (Id. at 97.)
Nothing in the SAC suggest that any of the individual
defendants had any involvement in either making the

80
phone calls to plaintiff or initiating the purported lawsuit
that led to Plaintiff filing bankruptcy.
The factual allegations do not support the inference
that Defendants took any adverse action against Plaintiff
because Plaintiff engaged in protected activity. Again,
Plaintiffs dissatisfaction with the service provided at the
hospital does not equate to a constitutional violation.
Furthermore, Plaintiff was not denied “proper registration.”
As she concedes throughout the SAC, hospital staff did
process her registration and both a resident and the
physician in charge of the ER examined her. Thus, Plaintiff
also has not established that Defendants Huang or
Ginsburg refused her medical care because she threated to
file a complaint. Further, the SAC admits that Huang and
Weingrow both met with Plaintiff and discussed her
medical conditions (see SAC at 85-86.) and the hospital’s
discharge paperwork included a summary of Plaintiff s
complaint (Id. at 90). Neither Plaintiffs disagreement with

81
Defendants’ medical assessments nor her dissatisfaction
with their bedside manner amounts to retaliation based on
protected speech. In the absence of sufficient facts to
support a plausible inference that Plaintiff suffered some
adverse action as a result of a constitutionally protected
activity, Plaintiffs First Amendment retaliation claims
against Defendants must be dismissed.
Plaintiff has now had three opportunities to
articulate a section 1983 claim. At this juncture, no
likelihood exist that she will be able to cure these
deficiencies with amendment. Accordingly, Plaintiff s
section 1983 claims should be dismissed with prejudice.
III. Plaintiff Fails To Establish That Her Claims
Under Sections 1981,1983, And 1985 Are Timely.
In the others dismissing the FAC and the Complaint
with leave to amend, the Court indicated that the pleadings
appeared to be untimely because the events at issue
Occurred in 2012-2013—more than four years before
Plaintiff filed the Complaint and FAC. (See Dkt. No. 24 at

■as

82

22-24; see also Dkt. No. 13 at 6.) The statute of limitations
for claims under sections 1981,1983, and 1985 is two years.
(id.) (citing, inner alia, Taylor v. Regents of Univ. of Cal.,
993 F.2d 710, 711-12 (9th Cir. 1993) (the “statute of
limitations for personal injury actions govern claims
brought pursuant to 42 U.S.C. 1981, 1983, and 1985”) and
CAL. CIV. PRO CODE 335.1 (stature of limitations for
personal injury actions is two years)). Thus, even if the
Court generously assumes that none of Plaintiffs Section
1981, 1983, and 1985 claims accrued until 2013, the statute
of limitations nevertheless expired in 2015, and Plaintiff
waited in additional two years - until June 2017 — to file
the Complaint.
In the SAC, Plaintiff addresses the statute of
limitation problem by asserting that she is entitled to
equitable tolling because: (1) Plaintiff is disable; (2)
Plaintiff takes strong medications’ (3) an unidentified

83

person has been threatening Plaintiff; (4) the UC Board of
Regents sued Plaintiff in 2013; (5) Plaintiff filed for
bankruptcy; (6) Plaintiff had to assist her mother after an
accident; (7) Plaintiff had to assist her father after an
accident; (8) Plaintiff released her attorney from the case in
November of 2014; (9) Plaintiff filed a lawsuit against the
UC Board of Regents, which led the LAPD to harass her;
(10) UCLA retaliated against her for filing a lawsuit
against the UC Board of Regents; (11) Plaintiff is longer
receiving medical treatment; (12) People have trespassed at
Plaintiffs apartment; (13) Plaintiff has experienced
problems with her computer, cellphone printer, mail,
library card, and debit card; (14) People have been spaying
on her and following her; and (15) people have been
conspiring against her because of her repeated suits. (SAC
at 136.)
Federal courts apply the forum states’ equitable
tolling rules when they are not inconsistent with federal

84
law. Azer v. Connell, 306 F.3d 930, 936 (9th Cir. 2002); Fink
v. Shedler, 192 F.3d 911, 914 (9th Cir. 1999). Plaintiff has
the burden of pleading facts that would give rise to
equitable tolling, Hinton v. Pac. Enters., 5F.3d 391, 395 (9th
Cir. 1993); by demonstrating that she meets the following
three conditions: (1) the defendant must have had timely
notice of the claim; (2) the defendant must not be prejudiced
by being required to defend the otherwise barred claim; and
(3) the plaintiffs conduct must have been reasonable and in
good faith. Fink, 192 F.3d at 916; McDonald v. Antelope
Valley Comm. College Dist., 45 Cal. 4th 88, 102 (2008).
Plaintiff has not satisfied her burned here. Her
asserted list of obstacles and tragedies that she
encountered on unspecified dates in the four or more years
between the dater her claim accrued and the date she filed
the Complaint do not demonstrate that Defendants had
timely notice of her Section 1981, 1983, and 1985 claims
and that Plaintiff acted reasonably and in good faith to
being her claims in a timely manner. Accordingly, even if
Plaintiff successfully stated a claim under Section
1981,1983, and 1985, those claims are barred by the statute
of limitations and must be dismissed.
IV. Plaintiff Fails to State Any Other Federal
Statutory Claim.

85 .
-

Plaintiff, in wholly conclusory manner, attempts to

assert additional federal statutory claims against
Defendants. For instance, Plaintiff asserts that Defendants
violated the America with Disabilities Act and Section 504
of the Rehabilitation Act, by deliberately discriminating
against her based on her disability and her race (See. e.g. at
pp. 41-56 (Counts 18-35).) However, Plaintiff has not
identified any actions or omissions by any Defendant from
which the Court could plausibly infer that a Defendant
failed to accommodate Plaintiffs disability or disabilities or
otherwise discriminated against her because of any
disability or disabilities. Accordingly, Plaintiffs claims
under the America with Disabilities Act and the
Rehabilitation Act must be dismissed.
Finally, Plaintiff asserts claims against Defendants
Altman, Ranganath, and UC Board of Regents, under 45
C.F.R 46, a federal policy regarding human subjects that
applies to Federal Agencies and Offices. This set of
regulations does not create a cause of action for a private
party against private actors or a state organization.
Instead, they apply solely to “research that is conducted or
supported by a federal department or agency.” 45 C.F.R.
46.101. Moreover, the Ninth Circuit has specifically held
that “agency regulations cannot independently create rights

86

enforceable through 1983.” Save Our Valley v. Sound
Transit, 335 F.3d 932, 939 (9th Cir. 2003). Accordingly,
these claims also must be dismissed with prejudice.
V. Plaintiff Fails to State Any Claim Against BristolMyers Squibb.
Plaintiff identifies Bristol-Myers Squibb, a private
pharmaceutical company, as a defendant in this civil rights
action. (SAC at. 17.) Specifically, Plaintiff alleges “BristolMyers Squibb” failed to abide by the Federal Laws that
protect Human Subjects in Research.” (Id. at 125.) Plaintiff
further alleges that “Bristol-Myers Squibb was providing
ORENCIA medication that was EXPIRED to Ranganath’
study at the Regents and that critical information was not
disclosed to Plaintiff and/or the other subjects in the study;
putting Plaintiff and the other subjects’ health at risk.” (Id.
at 126 (error and capitalization in original).) Taking these
allegations as true for purposes of screening and liberally
construing the pro se pleading. Plaintiff s allegations fail to
state a claim for a violation of a federal civil right by
Bristol-Myers Squibb.
First, Plaintiff fails to indicate what specific federal
law she believes Bristol-Myers Squibb has violated in
purportedly supplying the expired ORENCIA medication.
Second, as noted above, 45 C.F.R. 46 does not provide a

87
private right of action against private actors or a state
entity. As a private company, Bristol-Myers Squibb cannot
be a “person acting under color of state law” for purpose of a
section 1983 claim or any other constitutional violation, and
there are no facts or allegations demonstrating that this
defendant can be held liable under sections 1981 or 1985
either. See Coto Settlement v. Eisenber, 593 F.3d 1031,
1034 (9th Cir. 2010) (at pleading stage factual allegations
must be sufficient to support a claim for relief that is
plausible on its face) (quoting Ashcroft v. Iqbal, 556, U.S.
662, 697 (2009)).
Because the SAC contains no facts supporting any
federal civil rights action against Bristol-Myers Squibb,
Plaintiffs claims against this defendant must be dismissed
with prejudice.
CONCLUSION
In light of Plaintiffs failure to state a single federal
claim upon which relief can be granted, despite receiving a
third opportunity to do so, and her accompanying failure to
demonstrate that her constitutional claims are timely,
despite being expressly instructed to do so, the Court finds
that an additional opportunity for amendment would be
futile, and the SAC must be dismissed in its entirety which
prejudice.

88
RECOMMENDATION
For all of the foregoing reasons, IT IS RECOMMENDED
that the District Judge issue an Order: (1) accepting the
Report and Recommendation; and (2) directing that
Judgment be entered dismissing this action with prejudice
for failure to state a claim.
DATED: April 5, 2018.
Karen L. Stevenson (stamp /sf)
Karen L. Stevenson
United States Magistrate Judge

NOTICE
Reports and Recommendations are not appealable to
the Court of Appeals, but may be subject to the right of any
party to file objections as provided in the Local Rules
Governing the Duties of Magistrate Judges and review by
the District Judge whose initials appears in the docket
number. No notice of appeal pursuant to the Federal Rules
of Appellate Procedure should be files until entry of the
judgment of the District Court.

